U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

April 30, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Israel Ernesto Palacios v. United States, No. 20-7378
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 5, 2021,
and placed on the docket on March 9, 2021. The government’s response is now due, after one
extension, on May 10, 2021. We respectfully request, under Rule 30.4 of the Rules of this Court,
a further extension of time to and including May 21, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-7378
PALACIOS, ISRAEL ERNESTO
USA

THOMAS VERNON BURCH
225 HERTY DRIVE
ATHENS, GA 30602
TYBURCH@UGS.EDU

